<html>
<title> - THE ADMINISTRATION'S EMPTY PROMISES FOR THE INTERNATIONAL CLIMATE TREATY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  THE ADMINISTRATION'S EMPTY PROMISES
                  FOR THE INTERNATIONAL CLIMATE TREATY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 18, 2015

                               __________

                           Serial No. 114-50

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC IS NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              ____________
                              
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE
97-769PDF                   WASHINGTON : 2017                   

________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                            C O N T E N T S

                           November 18, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     9

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

                               Witnesses:

Dr. Anne Smith, Senior Vice President, NERA Economic Consulting
    Oral Statement...............................................    16
    Written Statement............................................    18

Mr. Bill Magness, Senior Vice President, Governance, Risk and 
  Compliance, Electric Reliability Council of Texas
    Oral Statement...............................................    65
    Written Statement............................................    67

Ms. Katie Dykes, Deputy Commissioner, Connecticut Department of 
  Energy and Environmental Protection and Chair, Regional 
  Greenhouse Gas Initiative, Inc.
    Oral Statement...............................................    72
    Written Statement............................................    74

Mr. Chip Knappenberger, Assistant Director, Center for the Study 
  of Science, Cato Institute
    Oral Statement...............................................    80
    Written Statement............................................    82
Discussion.......................................................    93

             Appendix I: Answers to Post-Hearing Questions

Dr. Anne Smith, Senior Vice President, NERA Economic Consulting..   116

Mr. Bill Magness, Senior Vice President, Governance, Risk and 
  Compliance, Electric Reliability Council of Texas..............   120

            Appendix II: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   122

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   140

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   152

Statement submitted by Representative Elizabeth H. Esty, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   154

 
                  THE ADMINISTRATION'S EMPTY PROMISES
                  FOR THE INTERNATIONAL CLIMATE TREATY

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.
[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is recognized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing entitled ``The Administration's 
Empty Promises for the International Climate Treaty.''
    I recognize myself for five minutes for the purposes of an 
opening statement, and then I'll recognize the Ranking Member.
    Over the last year, the Environmental Protection Agency has 
released some of the most expensive and burdensome regulations 
in its history. Today's hearing will examine how the 
Environmental Protection Agency's recent regulations will do 
little to meet the administration's pledge at the upcoming 
Paris talks to reduce global carbon emissions.
    The so-called Clean Power Plan will cost billions of 
dollars, cause financial hardship for American families, and 
diminish the competitiveness of American industry around the 
world, all with no significant benefit to climate change. It is 
well documented that the Clean Power Plan will shut down power 
plants across the country, increase electricity prices and cost 
thousands of Americans their jobs.
    New analysis by NERA Economic Consulting shows that this 
final rule will impose a tremendous cost on the American 
people. This includes $29 billion to $39 billion in annual 
compliance costs and annual double-digit electricity price 
increases in most states.
    My home state of Texas would be one of the hardest hit. 
According to a recent report by the Energy Reliability Council 
of Texas, energy costs for customers in Texas may increase by 
up to 16 percent per year due to the Clean Power Plan alone.
    EPA asserts that the Clean Power Plan will help combat 
climate change. However, EPA's own data demonstrates that claim 
is false. The EPA Administrator Gina McCarthy testified before 
this committee and agreed that this rule would have a minimum 
impact on climate. In fact, their data shows that this 
regulation would reduce sea level rise by only one one-hundreth 
of an inch, the thickness of three sheets of paper.
    Furthermore, statements by President Obama and others that 
attempt to link extreme weather events to climate change are 
unfounded. The lack of evidence is clear: no increased 
tornadoes, no increased hurricanes, no increased droughts or 
floods.
    The administration's claims are contradicted by the 
underlying science from the United Nation's Intergovernmental 
Panel on Climate Change. For instance, the IPCC found that 
there is ``low confidence on a global scale,'' that drought has 
increased in intensity or duration. The same lack of evidence 
can be found in the IPCC reports for almost every parameter of 
extreme weather events.
    Hurricanes have not increased in the United States in 
frequency, intensity, or normalized damage since at least 1900. 
And it has been a decade since a category 3 or stronger 
hurricane has hit the United States. Whether measured by the 
number of strong tornadoes, tornado-related fatalities or 
economic losses associated with tornadoes, the latter half of 
the 20th century shows no climate-related trend.
    Scientific American recently stated that the link between 
climate change and extreme weather is merely an opinion. The 
administration's alarmism and exaggeration is not good science 
and intentionally misleads the American people. The Clean Power 
Plan represents massive costs without significant benefits. In 
other words, it is all pain and no gain.
    Another example of how this Administration attempts to 
promote its climate agenda can be seen at the National 
Oceanographic and Atmospheric Administration. Its employees 
altered historical climate data to get politically correct 
results in an attempt to disprove the hiatus in global 
temperature increases.
    NOAA conveniently issued its news release promoting this 
report just as the Obama Administration was about to announce 
its extensive climate change regulations. When the Science 
Committee raised concerns about NOAA's report, the agency 
refused to be transparent about its findings and provide 
documents to the Committee.
    The American people should be suspicious of the motives of 
this Administration as it continually impedes Congressional 
oversight of agency actions tied to its extreme climate agenda.
    In just a few weeks, world leaders will gather in Paris to 
discuss how to regulate carbon emissions. The Obama 
Administration touts the Clean Power Plan as the cornerstone of 
its promise to the international community to reduce greenhouse 
gas emissions. However, the U.S. pledge to the U.N. is 
estimated to prevent only a three onehundreths of one degree 
Celsius temperature rise. This is laughable even if the 
negative consequences are serious.
    There is a reason the President chose to bypass Congress in 
order to negotiate a climate deal on his own. The President's 
plan gives control of U.S. energy policy oftentimes to 
unelected United Nations officials. This plan ignores good 
science and only seeks to advance a partisan political agenda. 
The President should come back to Congress with any agreement 
that is made in Paris on carbon emissions. He won't because he 
knows the Senate will not ratify it.
    I look forward to hearing from today's witnesses about the 
impact of these burdensome EPA regulations on their states.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Oregon, Ms. Bonamici, 
is recognized for hers.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to all of our witnesses for being here today.
    I'm especially looking forward to the testimony of Ms. 
Katie Dykes, the Deputy Commissioner of the Connecticut 
Department of Energy and Environmental Protection. It will be 
beneficial for the Committee to learn about the success of the 
State of Connecticut and the Regional Greenhouse Gas 
Initiative, known as RGGI, which is reducing carbon emissions 
while simultaneously growing the region's economy.
    And after my opening statement, Ms. Esty from Connecticut 
will be sitting here in the Ranking Member chair.
    The success of RGGI highlights how we can have strong 
environmental regulations and a strong economy. They are not 
mutually exclusive. This is not just true in the United States; 
it's a growing reality now accepted by many other nations.
    And I'm looking forward to discussing the Clean Power Plan, 
which builds on the history and accomplishments of the Clean 
Air Act and the mission of the EPA to protect public health and 
the environment. Our commitment to a cleaner future is what 
allows the United States to lead by example and galvanize the 
international community to take meaningful steps to address the 
issue of carbon emissions and climate change. The Clean Power 
Plan in the upcoming negotiations in Paris are necessary if we 
stand any chance, not just as a country but as a world, of 
lessening the effects of climate change on our States, our 
country, and our planet.
    Some here today might question the climate scientists and 
their research, yet the overwhelming body of scientific 
research shows that we must take action to avoid the most 
serious effects of climate change. Thankfully, over the last 
few years there have been numerous studies that clearly show 
the costs and risks associated with not acting to address 
climate change. Those are very large.
    For example, a recent study by the World Bank found that, 
without the right policies, rising seas and severe weather 
events could force more than 100 million people into extreme 
poverty. This is just one of the stark statistics reflecting 
the potential impacts of climate change.
    I'd also like to point out that the scientific community is 
not alone in its call for action. The business community has 
called for action on climate change as well. In my home State 
of Oregon many companies have stepped up and demonstrated their 
support to address climate change. Nike, Intel, Iberdrola USA, 
International Paper, LAM Research, and Portland General 
Electric are just a few examples of many that have joined more 
than 80 companies nationwide in signing the American Business 
Act on Climate Pledge. These companies have made business-
specific commitments to take significant actions to address 
climate change and expressed their support for a strong Paris 
agreement.
    The Clean Power Plan is a critical element of our domestic 
efforts, and it represents an opportunity for American 
ingenuity. Environmental regulations often act as a catalyst to 
create new jobs and new markets, as well as the savings that 
come with a healthier, more productive workforce and 
population. In 2012, the Department of Commerce estimated that 
the American environmental technologies industry generated 
approximately $312 billion in revenues with a global market of 
more than $800 billion, employing nearly 1.7 million Americans, 
and supporting 60,000 small businesses.
    The United States should remain a global leader in clean 
energy technologies and benefit from the much-needed transition 
to a low carbon economy. When you have the scientific and 
business communities agreeing that action to address climate 
change is necessary and that the benefits outweigh the risks, 
it is clearly time for Congress to listen. I am hopeful that 
with the United States' leadership and commitment, the U.N. 
climate negotiations will result in meaningful actions to 
address our biggest environmental challenge.
    Thank you, Mr. Chairman, and again, thank you to our 
witnesses for being here this morning. I look forward to all of 
your testimony, and I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Bonamici.
    Let me introduce our witnesses. Our first witness today is 
Dr. Anne Smith, Senior Vice President and Environmental 
Practice co-Chair for NERA Economic Consulting. Dr. Smith is an 
expert in environmental policy assessment and corporate 
compliance strategy planning. She specializes in market impact 
analysis, risk management integrated policy assessment, and the 
design and performance of emissions trading programs. Dr. Smith 
previously served as an economist in the Office of Policy 
Planning and Evaluation at the EPA. Dr. Smith received her 
bachelor's degree in economics from Duke University and her 
master's and Ph.D. from Stanford.
    Our second witness is Mr. Bill Magness, General Counsel and 
Senior Vice President for Governance, Risk, and Compliance for 
the Electric Reliability Council of Texas, or ERCOT. Mr. 
Magness has worked on utility issues for more than 20 years and 
has served as lead counsel in utility commission proceedings in 
16 States. In addition, he served as a federal prosecutor early 
in his career. Mr. Magness received his bachelor's degree from 
the University of Texas and his law degree from the University 
of Pennsylvania.
    I now recognize the gentlewoman from Connecticut, Ms. Esty, 
to introduce our next witness, Ms. Katie Dykes, Deputy 
Commissioner for the Connecticut Department of Energy and 
Environmental Protection and Chair of the Regional Greenhouse 
Gas Initiative. I hope I didn't use up too much of your 
introduction by mentioning that, but the gentlewoman from 
Connecticut is recognized.
    Ms. Esty. Thank you, Chairman Smith and Ranking Member 
Bonamici. I'm especially pleased to welcome and introduce 
Connecticut's Deputy Commissioner for Energy, Ms. Katie Dykes, 
as one of our esteemed witnesses on today's panel.
    As a Deputy Commissioner of the Connecticut Department of 
Energy and Environmental Protection, which we refer to as DEEP, 
Ms. Dykes is an invaluable director of Connecticut's efforts to 
bring cheaper, cleaner, more reliable energy to our state. In 
addition, Ms. Dykes currently serves as the Chair of the Board 
of the Regional Greenhouse Gas Initiative, known as RGGI.
    Connecticut is proving as one of the laboratories of the 
States in the Jacksonian/Jeffersonian model that we can protect 
the environment, reduce emissions, and sustain and support a 
strong economy. Through her leadership with RGGI and 
development of innovations like the Connecticut Energy 
Efficiency Fund, she's the perfect spokesman for a cleaner, 
more prosperous energy future. Prior to her service in 
Connecticut, Ms. Dykes served as Deputy General Counsel for the 
Council on Environmental Quality at the White House and as 
Legal Advisor to the General Counsel of the U.S. Department of 
Energy.
    Finally, I would be remiss if I failed to mention that Yale 
Law School is proud to claim her as an alum. She's a classmate 
of the Chairman's daughter.
    Chairman Smith. No fair mentioning that now.
    Ms. Esty. And I also have to confess she was one of my 
husband's star students, and he convinced her to return to 
Connecticut to take up her present duties. So thank you so much 
for joining us here today, and thank you for indulging me in 
that.
    Chairman Smith. Thank you, Ms. Esty, for that introduction.
    Our final witness today is Mr. Paul Knappenberger, 
Assistant Director for the Center for the Study of Science at 
the Cato Institute. Mr. Knappenberger has over 20 years of 
experience in climate research and public outreach, which 
includes ten years with the Virginia State Climatology Office 
and 15 years as a Research Coordinator for New Hope 
Environmental Services. Mr. Knappenberger received his 
bachelor's and master's degrees in environmental sciences from 
the University of Virginia.
    We clearly have star witnesses today. We welcome you all. 
And, Dr. Smith, if you'll begin with your testimony.

                  TESTIMONY OF DR. ANNE SMITH,

                     SENIOR VICE PRESIDENT,

                    NERA ECONOMIC CONSULTING

    Dr. Smith. Mr. Chairman, Ranking Member Bonamici, and 
Members of the Committee, thank you for your invitation to 
participate in the hearing today. I'm Anne Smith of NERA 
Economic Consulting. My testimony today is my own and does not 
represent a position of my company or its clients.
    I have a Ph.D. in economics, and I've spent the past 25 
years assessing costs and benefits of numerous types of climate 
policies for governments, businesses, research groups, and 
NGOs.
    My NERA colleagues and I have just completed a detailed 
analysis of the costs of EPA's final Clean Power Plan or CPP. 
We used NERA's integrated energy and macroeconomic model, which 
has been tested out multiple times in the modeling forums that 
Stanford University organizes. We use the most recent data on 
technology and energy markets from the U.S. Energy Information 
Administration, which is the government's independent and 
impartial source of energy information for policy analysis.
    Our analysis estimated both distributional impacts and 
macroeconomic costs of the CPP. We found that the fossil energy 
sectors face extensive impacts. For example, under the CPP's 
mass-based caps, over the period 2022 to 2033, energy sector 
expenditures increase by a present value of $220 billion to 
$292 billion. Those spending increases translate into 
electricity rate impacts. When averaged over those same years, 
we find rates higher by 11 percent to 14 percent than if there 
were no CPP.
    From the macroeconomic perspective, net costs to the 
economy are also substantial. For example, after accounting for 
economy-wide interactions and rebating all allowance values to 
consumers, the CPP reduces U.S. consumer spending by a present 
value of $64 billion to $79 billion.
    I've heard comments that NERA's estimates are not credible 
because they are supposedly much higher than EPA's. But they 
are not higher. We examined the details of EPA's cost analysis, 
and we found that EPA's own comparable estimates are $76 
billion, present value. In other words, an apples-to-apples 
comparison finds that EPA's costs are essentially the same as 
NERA's. And the reason it may seem our estimates are higher is 
because EPA has reported its annual cost estimates incorrectly. 
For example, for 2020 EPA's Regulatory Impact Analysis reports 
compliance spending that is only $1.4 billion, but we found 
that EPA actually estimated spending in that year would be 
$17.4 billion. My written testimony explains how these facts 
can be found in EPA's documents.
    But just yesterday, I was digging yet deeper into EPA's 
cost outputs, and I discovered yet another problem. The CPP 
requires that States prevent leakage if they choose the mass 
cap compliance option. Leakage would occur if uncovered 
emitters increase their emissions to offset the reductions of 
the CPP-covered sources. And I discovered that EPA's analysis 
of the mass cap for the CPP does not include such leakage 
prevention and that EPA actually analyzed a cap that's about 11 
percent less stringent in 2030 than the CPP requires. That 
means, of course, that EPA's cost estimate is an underestimate.
    I've spoken mainly about costs, but there are concerns 
about EPA's estimates and benefits as well. For example, EPA 
tells us that the CPP will prevent thousands of deaths and many 
more asthma attacks and sick days, and such health benefits 
account for about half of EPA's estimates of the final CPP's 
benefits. But none of these purported health benefits of the 
CPP are due to climate impacts. Those estimates are all due to 
reductions in non-greenhouse gas emissions. EPA already 
regulates those other emissions to levels that are protective 
of the public health, and that fact undercuts any rationale for 
viewing those estimates as credible estimates of the benefits 
of the CPP.
    I've also prepared a written statement and I request that 
it be submitted into the record.
    [The prepared statement of Dr. Smith follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you----
    Dr. Smith. Thank you.
    Chairman Smith. --Dr. Smith.
    Mr. Magness.

                 TESTIMONY OF MR. BILL MAGNESS,

               SENIOR VICE PRESIDENT, GOVERNANCE,

                      RISK AND COMPLIANCE,

             ELECTRIC RELIABILITY COUNCIL OF TEXAS

    Mr. Magness. Thank you, Mr. Chairman, Ranking Member Esty, 
Members of the Committee. Thanks for the opportunity to appear 
before you today.
    I'm Bill Magness. I'm the Senior Vice President for 
Governance, Risk, and Compliance and General Counsel at the 
Electric Reliability Council of Texas, known as ERCOT.
    ERCOT's a nonprofit corporation that ensures a reliable 
electric grid and operates wholesale electricity markets for 
consumers in Texas. The ERCOT interconnection is comprised of 
approximately 75 percent of the landmass of Texas but includes 
about 90 percent of the customer demand in the State.
    ERCOT recently completed a study of the impact of the Clean 
Power Plan on electric service in Texas within the ERCOT 
region. ERCOT's study looks at power supply impacts of the CPP, 
as well as the estimated cost to consumers. On the power supply 
side of the equation, we examine impacts in two broad areas: 
first, on power plants, where the power is made and transmitted 
through wires to the customers. ERCOT's power plant portfolio 
is diverse. Of the energy used in ERCOT in 2014, 41 percent of 
it came from natural gas units, 36 percent from coal units, 11 
percent from nuclear, and ten percent from wind and other 
renewable resources.
    The second area was the transmission system. This is a 
complex system of wires, towers, transformers, and associated 
infrastructure that carry electricity between power plants and 
to the local utilities for delivery to customers.
    ERCOT manages the flow of electricity on 43,000 miles of 
electric transmission lines, including 3,600 miles that were 
very recently built primarily to bring wind resources to urban 
areas at a cost of approximately $6.9 billion.
    On the consumer cost side, in ERCOT our customer base is 
also very diverse. On the hottest day in the summer ERCOT power 
demand comes from approximately 50 percent residential 
customers and then 25 percent small commercial customers and 25 
percent large commercial and industrial customers. On a more 
mild day like today, ERCOT's demand comes from 40 percent--
rather, 40 percent of the demand in ERCOT is for large 
commercial and industrial customers. This is because there is a 
large commercial and industrial base in our region, which 
continues to show growth, as well as population inflows 
continue to show growth in Texas. So we continue to have 
increased demand for electricity in the State.
    When we reviewed cost to customers based on the CPP, we 
examined wholesale and retail costs that customers can expect 
to experience in the future. To summarize the findings, first, 
on the supply side, ERCOT expects at least 4,000 megawatts of 
coal-fired generation capacity to stop operating due to the 
Clean Power Plan. That's roughly 25 percent of ERCOT's coal 
fleet, approximately six percent of our total generation 
capacity.
    Compliance with the CPP would also require dramatic 
increase in reliance on renewable resources on the ERCOT grid. 
ERCOT and Texas are already number one in wind production in 
the United States and would rank sixth if Texas were measured 
against other nations. To put that growth in perspective, wind 
power generated 36 terawatt hours of electricity in ERCOT in 
2014. That's with more wind production on our grid than exists 
in any other State. Our modeling shows the CPP requirements 
would demand that new renewables would be needed to produce 95 
terawatts--terawatt hours by 2030, which would be a remarkable 
increase.
    Now, ERCOT, because of the large amount of renewables on 
our system, has been a leader in the integration of renewable 
resources on electric grids, but the penetration rates 
contemplated by the CPP will pose challenges. In electric 
systems, supply and demand have to be perfectly balanced at all 
times within very small tolerances. Power supply that can be 
dispatched by operators, that can be controlled by operators, 
has traditionally provided a reliable way to keep frequency in 
balance. Power supply that cannot be dispatched must be 
operated in a different way and poses unique challenges that 
now exist on our grid and others.
    Our studies show that, at times, it may be very difficult 
to meet the CPP's emissions targets while maintaining the 
amount of dispatchable power that we need to maintain 
reliability to keep things in balance.
    On the transmission issues, the transmission system moves 
powers from power suppliers to consumers, but it also relies on 
injections of power to keep it stable. Our model results show 
overloads on hundreds of miles of transmission lines within 
ERCOT, and if we need to do transmission projects to remedy 
that, those projects cost between $1 million and $3 million per 
mile, and in ERCOT, take approximately five years from the 
beginning of planning to the completion of construction. So for 
large infrastructure projects that would be needed to address 
the retirement of power plants, there is a very long lead time 
and a lot of expense involved.
    Finally, on the cost side, as noted, our study showed a 16 
percent increase in compliance costs from Clean Power Plan, but 
that does not increase the additional infrastructure spending 
and transmission costs that I noted in the testimony. Thank 
you.
    [The prepared statement of Mr. Magness follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Magness.
    And, Ms. Dykes.

                 TESTIMONY OF MS. KATIE DYKES,

                      DEPUTY COMMISSIONER,

              CONNECTICUT DEPARTMENT OF ENERGY AND

              ENVIRONMENTAL PROTECTION AND CHAIR,

            REGIONAL GREENHOUSE GAS INITIATIVE, INC.

    Ms. Dykes. Thank you, Chairman Smith and Ranking Member 
Esty and other Members of the Committee, for inviting me to 
testify today.
    Climate change threatens Connecticut's energy system, its 
families, and its businesses, and I am proud to be here to tell 
you that our State has made a commitment to combat climate 
change and to share with you some of the successes that we've 
already achieved in our State in doing so.
    We know that a well-designed program can achieve cost-
effective pollution reduction while supporting local economies. 
We know this because the Regional Greenhouse Gas Initiative, or 
RGGI, has proven it. The RGGI States have demonstrated the 
successful reduction of carbon pollution while maintaining grid 
reliability, creating jobs, and reinvesting in strategic energy 
and consumer benefit programs.
    As a RGGI State, Connecticut stands with nine other--or 
eight other States in New England and the mid-Atlantic region, 
representing 16 percent of the U.S. economy and $2.4 trillion 
in gross domestic product. Together, through our commitments to 
the RGGI program, we've achieved already the goals that the 
Clean Power Plan is setting out to put us on track to achieve 
thanks to the early adoption of climate change mitigation 
policies, investment in energy efficiency, and our leadership 
in the transition to a clean energy economy. We do not 
anticipate any difficulty in meeting the Clean Power Plan 
compliance timelines.
    Over the last decade, carbon pollution in the RGGI region 
has decreased by over 40 percent, while our regional economy 
has grown by eight percent. And during that time, we've 
maintained reliability, increased employment, and made a 
transition to a clean energy economy.
    Independent reports by the Analysis Group have concluded 
that RGGI has created billions of dollars of net economic value 
for families and businesses in our region and created tens of 
thousands of new job-years in our member States. Investments 
funded by RGGI proceeds are advancing grid reliability goals in 
the region through energy efficiency, peak demand reduction, 
and other strategic programs.
    Experts agree that multistate programs such as RGGI are the 
most cost-effective way to achieve Clean Power Plan targets. 
Multistate programs aligned with the regional nature of the 
grid, they allow for a simple, transparent, and verifiable 
tracking and compliance system, and they foster regional 
cooperation.
    The Clean Power Plan supports multistate cooperation as a 
compliance pathway, and I'm really proud to be here and excited 
to share with you some of the lessons that we've learned in 
implementing this program over the past several years, which we 
know has generated a lot of interest from other States and also 
from compliance entities as a model for States to pursue--to 
assist them in achieving very highly cost-effective compliance 
with the Clean Power Plan. I look forward to talking with you 
about that today.
    [The prepared statement of Ms. Dykes follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Dykes.
    And, Mr. Knappenberger.

              TESTIMONY OF MR. CHIP KNAPPENBERGER,

                      ASSISTANT DIRECTOR,

                CENTER FOR THE STUDY OF SCIENCE,

                         CATO INSTITUTE

    Mr. Knappenberger. Well, good morning, Chairman Smith and 
Ranking Member Esty and the other distinguished Members of the 
Committee. I thank you for the opportunity to testify this 
morning.
    I'm Paul Knappenberger, Assistant Director of the Center 
for the Study of Science at the Cato Institute, a nonprofit, 
nonpartisan public policy research institute located here in 
Washington, and Cato is my sole source of employment income.
    Before I begin my testimony, I'd like to make clear that my 
comments are solely my own and do not represent any official 
position of the Cato Institute.
    For the past 25 years or so, I've conducted research on 
climate and climate change, including working to quantify 
potential human influences upon it. So let me begin by saying 
that climate change is real and that results from both human 
and natural factors. Human contributions include large-scale 
changes to the natural landscape, as well as emissions of 
greenhouse gases and aerosols. Natural influences include 
internal oscillations such as El Nino that's going to make this 
year especially warm, and external influences such as the 
variations in solar activity. Together, such factors act to 
steer the Earth's weather and climate both in time and place.
    These facts are undisputed. What is disputed is the degree 
to which we can separate and identify the influence of those 
factors on global--and even more importantly--on the local 
scales where human-climate interaction takes place. While 
there's a broad agreement the Earth's temperature has risen 
nearly a degree Celsius over the past 150 years, the level of 
uncertainty in our understanding of the individual factors 
behind this observed rise is quite substantial. Consequently, 
bankable and actionable projections of the evolution of the 
Earth's future climate are largely lacking.
    But even with those caveats in mind, it is possible to 
glimpse the sort of climate impacts that U.S. actions aimed at 
mitigating climate change by reducing carbon dioxide emissions 
will have. To do so, I employ a widely used--in both national 
and international climate assessments--tool called the Model 
for the Assessment of Greenhouse Gas-Induced Climate Change, 
which is appropriately or not the acronym MAGICC.
    And MAGICC was in part funded by the EPA and is freely 
available online. It's a climate model emulator that takes as 
input emissions scenarios and outputs projected temperature 
change, which are an actual metric of climate.
    So first, I'll look at the EPA's climate--Clean Power Plan 
and its goal to reduce carbon dioxide emissions from power 
plants by 32 percent by the year 2030. MAGICC shows those 
reductions would result in a global warming--a global 
temperature savings by the end of this century of about 2/100 
of a degree. This is neither meaningful, nor scientifically 
detectable.
    The Clean Power Plan plays a major role in the Climate 
Action Plan that the United States is going to offer up at the 
United Nations upcoming climate conference in Paris beginning 
later this month. There, the United States will pledge to 
reduce greenhouse gas emissions by 26 to 28 percent below the 
2005 level in 2025, and this is just a step along the way to an 
80 percent reduction by the year 2050.
    Now, even if the United States were to achieve its 2025 
pledge, which requires actions that go beyond the Clean Power 
Plan, the projected temperature rise averted by the year 2100 
would be about 4/100 of a degree. And even if we were to reach 
an 80 percent reduction, the temperature savings only totals 
about 1/10 of a degree. That's a very small part for the 
societal transformation that's going to have to happen to make 
that 80 percent reduction come to pass.
    Now, the other nations of the world have offered up their 
own Climate Action Plans, and a critical analysis of those 
collective scenarios is that they depart very little from what 
seems like business-as-usual plans. Basically, the individual 
countries are emphasizing economic development over climate 
change concerns.
    The expected temperature rise from the current set of 
international offerings is about 3.5 degrees Celsius, which is 
far beneath the--which is far above the often talked about but 
rather arbitrary 2 degrees Celsius target.
    Now, all of the temperature projections I've thus far 
described have assumed that the Earth's climate sensitivity--
that's how much the temperature will rise for a doubling of the 
Earth's carbon dioxide concentration--is about 3 degrees 
Celsius when in fact there's a growing body of scientific 
literature and a growing consensus that the Earth's climate 
sensitivity is actually closer to 2 degrees Celsius. So if you 
rerun MAGICC with this lower value of the Earth's climate 
sensitivity, the projected temperature changes decrease by 
about 25 percent.
    Now, this implication is twofold. First, the already 
minuscule impact U.S. actions will have on future climate 
change is further reduced; and second, the temperature rise 
associated with business as usual will result in a less-than-
commonly-advertised warming not far from the U.N.'s 2 degree C 
target. These two considerations lower the urgency and bring 
into question the necessity of U.S. climate mitigation efforts 
like the EPA's Clean Power Plan, the President's Climate Action 
Plan, and pledges to the United Nations.
    Thank you.
    [The prepared statement of Mr. Knappenberger follows:]
    [GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Knappenberger.
    And, Dr. Smith, let me address my first question to you, 
and that is in what way is the EPA's modeling system flawed or 
biased?
    Dr. Smith. The issue is not----
    Chairman Smith. Turn on your mike there.
    Dr. Smith. Sorry. The issue is not so much in the system 
itself as in the assumptions that go into the analysis, but 
more importantly, the reporting of the results that come out of 
it.
    Chairman Smith. Right.
    Dr. Smith. As I indicated in my testimony just now, there 
are estimates that are coming out of EPA's modeling system that 
are not being reported to the public in the way that they come 
out of the analysis properly.
    Chairman Smith. And what would be the impact if it was 
reported correctly?
    Dr. Smith. Well, as I said, the--instead of reporting, for 
instance, $1 billion of costs in 2020, they would report $17 
billion of costs in that year, and there's an overall bias 
generally. A present value of $76 billion for the net cost 
across the whole time period also would be valuable to report.
    Chairman Smith. So, in other words, if you skew the data, 
you can skew the results considerably?
    Dr. Smith. That's certainly true.
    Chairman Smith. Okay. Thank you, Dr. Smith.
    And, Mr. Magness, you addressed this in your testimony as 
well, but if you can maybe give us a specific summary-what will 
states save, if anything, as a result of the Clean Power Plan? 
And more--I guess I'd say the reverse. What is the cost to the 
states and also what is the cost to consumers if you can be 
specific?
    Mr. Magness. Sure. In the ERCOT region what we found as far 
as specific cost to consumers was our model indicated that we 
would see a 16 percent increase in retail electric rates, and 
that's based on the amount that wholesale electric rates feed 
into the retail. So that was the basis of that in our modeling.
    In addition, the costs of things like transmission 
infrastructure are rather difficult to estimate with 
specificity because it depends on which projects we need to 
build. But if--with the rubric that between $1 and $3 million 
per mile for transmission projects, and if you have to build 
long lines to take the place of units that have been retired, 
you're looking at multimillions of dollars pretty quickly.
    Chairman Smith. Right. I have seen, and maybe you're 
familiar with the analysis they came up with most States in the 
country would see double-digit increase in electric costs. Is 
that accurate?
    Mr. Magness. We've seen data that suggests that, and it's 
consistent with what we found in the ERCOT region.
    Chairman Smith. Was it 40 states? I can't recall how many, 
but it was over a majority.
    Mr. Magness. I've seen reports indicating that's----
    Chairman Smith. Roughly 40 States have ten percent or more 
increase in electricity costs as a result of this plan, which 
arguably has no significant impact on climate change. Is that 
right?
    Mr. Magness. We've seen that data----
    Chairman Smith. Okay.
    Mr. Magness. --yes, sir.
    Chairman Smith. Thank you, Mr. Magness.
    And then, Mr. Knappenberger, what impact will EPA's Clean 
Power Plan have on Earth's climate, if any?
    Mr. Knappenberger. Well, it's very small. I testified it 
was about 2/100 of a degree. That is 0.02. So you can't even 
detect such a change, and so----
    Chairman Smith. Right.
    Mr. Knappenberger. --you would--you could put that in, and 
even if you met it, you--there's no quantifiable results that 
come out of it in terms of climate.
    Chairman Smith. Now, I used three one-hundreths of a degree 
Celsius. You used two one-hundreths. No matter whether either 
of us is right, it's insignificant one way or the other?
    Mr. Knappenberger. Right.
    Chairman Smith. The other is how accurate is the science 
behind the claims connecting extreme weather with a change in 
climate?
    Mr. Knappenberger. Well, unfortunately, there's an off----
    Chairman Smith. Or maybe I should make that specific. 
Increase in global warming, is there any connection between 
that and extreme weather?
    Mr. Knappenberger. Yes, sure. There's a conflation--
unfortunately, a conflation between climate and climate change. 
And so the Earth's climate, the Nation's climate, and 
Washington D.C.'s climate is characterized by extreme weather 
events. They happen all the time. And whether or not we put 
in--or we achieve any of these emissions reductions that we 
talked about, we're still going to have extreme weather events 
in the future. And they're weather events, and weather events 
are themselves influenced by tens or hundreds of individual 
factors. And so the science points to a climate change 
influence on some of those factors, but it's hard to know which 
ones are controlling the character of those events.
    Chairman Smith. So often individuals point to one extreme 
weather event and use that to deduce that there's some kind of 
a connection. They know and we all know you can't use one 
incident as an example of a larger trend, and in fact, hasn't 
the trend been down as far as extreme weather goes over the 
last several decades?
    Mr. Knappenberger. That is true for many types of extreme 
weather across the United States.
    Chairman Smith. Okay. Thank you, Mr. Knappenberger.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you again to all the witnesses.
    Deputy Commissioner Dykes, the International Energy Agency 
recently released its World Energy Outlook Report for 2015. 
This report presents the Agency's projections for the evolution 
of the global energy system out to the year 2040 based on the 
latest data and market developments. And in the current report, 
the Agency states that the balance is shifting towards low 
carbon technologies, policy preferences for lower carbon energy 
options are reinforced by trends and costs as oil and gas 
gradually become more expensive to extract while the costs of 
renewables and of more efficient end-use technologies continue 
to fall.''
    So can you discuss how market dynamics have influenced the 
shift away from coal? And also, can you please discuss how the 
Clean Power Plan could influence current market trends toward a 
lower carbon--lower carbon technologies?
    Ms. Dykes. Of course. So as I mentioned in the RGGI States 
through the implementation of our program, a mass-based 
multistate trading program such as the kind that the Clean 
Power Plan embraces, we've seen a reduction of 40 percent in 
carbon over the last ten years while growing our GDP by eight 
percent. And we've achieved that through a whole complement of 
different drivers. Some of them include market-based mechanisms 
because our program is sending a price signal to compliance 
entities to power plants and to renewable developers and so on. 
They're investing in, you know, building out new gas 
generation. We've seen a 36 percent increase in generation from 
gas in our region over that time period.
    We've also seen falling costs of renewables over that time 
period, which also has helped to spur this transition, and then 
a range of, complementary programs, many of which are common 
across the country, including utility-administered energy 
efficiency programs, renewable energy programs such as 
renewable portfolio standards have contributed to this shift 
over to cleaner generation, as well as infrastructure and 
transmission investments.
    And the RGGI program has created a virtuous cycle of 
reinvestment in catalyzing that transition. We auction the 
allowances to pollute--to emit carbon, and we reinvest those 
proceeds into renewable energy and energy efficiency programs. 
In my State in Connecticut 92.5 percent of those proceeds, $84 
million during the time that we've participated in the program, 
we've been able to put back to work to help customers lower 
their bills through energy efficiency. That's helped to bring 
down wholesale electric costs.
    At the same time, we've put those to work through 
innovative programs like the Connecticut Green Bank that are 
helping to deploy more renewable energy, which is making our 
grid more reliable, our fuel mix more diverse, and helping to 
again spur that transition that we've seen happen in our region 
in a very reliable and affordable way.
    Ms. Bonamici. Terrific. And I have another question. 
Opponents of the Administration's efforts to address climate 
change often say that even if the United States meets the goals 
of the Clean Power Plan, it would have a minimal effect on 
climate change in part because emissions from other countries 
like China and India might overtake any cuts we're able to 
make, and regardless, any cuts by the United States would be a 
proverbial drop in the global carbon bucket anyway. But they're 
missing some important pieces of the strategy of the United 
States and its partners.
    How do you perceive the Clean Power Plan improving the 
United States--the credibility, leverage, and influence of our 
country in negotiations to achieve an international agreement 
to reduce global greenhouse emissions at the climate change 
conference in Paris? And why is it important for the United 
States to take on a leadership role in these negotiations?
    And I want to add that, like your State of Connecticut, 
Oregon has been a leader in the renewable energy economy. I was 
proud to be part of the State Legislature in 2007 when we 
passed our renewable fuel standards. What economic benefits 
will the United States have in leading the way in the 
development and administration of the next generation of energy 
technologies?
    Ms. Dykes. Well, I can tell you it's so critical that the 
Obama Administration is putting our nation on track to reduce 
carbon pollution from its largest source sector in advance of 
the Paris negotiations, utilizing best practices that have been 
proven to be feasible across the various States.
    You know, when I hear your question, I'm reminded of when 
Connecticut first began discussions with other States about 
starting RGGI. We got a lot of questions because we are not the 
biggest State in the country, and, you know, some would 
question why should our State lead? Why should the RGGI States 
lead? But now we are seeing the benefits of that leadership. We 
are seeing those benefits in terms of the jobs we've created in 
our State through the development of our clean energy programs, 
and we are well placed to comply with the Clean Power Plan.
    But these benefits of leadership we are pleased to share 
with other States across the country who are looking to our 
model as a way to comply with the Clean Power Plan, and so 
those dividends of leadership I think will bring along other 
jurisdictions as well so we can address this global problem.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    Dr. Smith, the EPA says that the Clean Power Plan results 
in $20 billion in climate savings. Those of us who've worked 
with any of these kind of matters knows that a lot of this 
comes down to what kind of discount rate is calculated in your 
projections. Could you explain to us what happens if that 
discount rate is adjusted?
    Dr. Smith. Yes. The climate benefits are based on a long 
future forecast of benefits that don't start immediately. They 
start to accumulate later in time, several decades to 100 years 
or more out into the future. So the $20 billion, which I 
believe is a three percent benefit in 2030 in the Regulatory 
Impact Analysis is based on a three percent discount rate of 
those long-term future benefits that are occurring in the next 
century. If a discount rate of five percent is used, that cost 
comes down to about $6 billion, and that's also observable in 
the Regulatory Impact Analysis.
    But the important thing, even more important than the 
discount rate, is the fact that those are benefits that are 
calculated not for the United States but benefits--90 percent 
of them or so are in other countries. So even out of the 20 
billion, if you accept the three percent discount rate, perhaps 
only about 2 billion of that is United States.
    Mr. Lucas. So then it's fair to say a lot of this comes 
down to what kind of accounting you use and how big a picture 
you draw to achieve these savings. And you're saying that 
it's--the accounting number used obviously generates that $20 
billion number, but even at that, we have to count the whole 
planet?
    Dr. Smith. It's a choice but it's not the typical choice in 
doing benefit-cost analysis to include benefits outside of the 
jurisdiction of the group that's undertaking a cost.
    Mr. Lucas. Do we know from the way the numbers are put 
together how much of that $20 billion in savings actually is 
alleged to be derived here in the United States?
    Dr. Smith. Yes, as I said, it's about ten percent of the 20 
billion.
    Mr. Lucas. So amazing. Doctor, also in the EPA's Clean 
Power Plan, would it be described fairly as an unauthorized 
regulatory cap-and-trade plan?
    Dr. Smith. I'm sorry. Could you----
    Mr. Lucas. The Clean Power Plan put forth by the EPA, is it 
fair to describe it as an unauthorized regulatory cap-and-trade 
plan? Some of us went through the cap-and-trade wars not many 
years ago when Congress as a whole chose not to do that.
    Dr. Smith. The way the rule is structured it allows states 
to put together cap-and-trade programs sort of voluntarily, and 
so in that sense it becomes a cap-and-trade program by way of 
regulation.
    Mr. Lucas. So in effect, what Congress would not do by 
regulation, it would happen?
    Dr. Smith. That's correct.
    Mr. Lucas. Fascinating. Fascinating, Mr. Chairman. 
Fascinating. I yield back my time, sir.
    Chairman Smith. Thank you, Mr. Lucas. The gentlewoman from 
Connecticut, Ms. Esty, is recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman, for holding today's 
hearing on the Environmental Protection Agency's final Clean 
Power Plan rule.
    Connecticut's success with greenhouse gas reductions has 
been vast and extraordinary. We've already surpassed our 2020 
goal of reducing emissions below 1990 levels and currently 
remain on a trajectory that will yield an 80 percent reduction 
of emissions below 2001 levels by 2050.
    Connecticut's path forward is a very promising one, but we 
also know that no single country or State can possibly address 
climate change alone. Part of Connecticut's success with carbon 
pollution reduction can be traced to its participation in the 
Regional Greenhouse Gas Initiative, a mass-based multistate 
approach to reducing carbon pollution in the electric sector.
    Empowering, empowering residents and citizens and 
businesses to use energy more efficiently as one of the key 
element of Connecticut's approach in particular in RGGI. In 
fact, according to a report that tracks investments made by 
RGGI States from 2008 to 2013, investment of RGGI proceeds, the 
cumulative investments in energy efficiency programs are vastly 
greater than investments in any other programs, including clean 
and renewable energy, direct-bill assistance, and greenhouse 
gas abatement.
    So, Deputy Commissioner Dykes, in your testimony you 
highlighted the success stemming from Connecticut's 
participation in RGGI, as well as the ancillary programs 
Connecticut has developed like the Clean Energy Efficiency 
Fund. Can you drill down a little bit--because I think 
oftentimes the objections to plans like this in Washington are 
assumptions that it's going to be a top-down mandate of how to 
achieve goals, but in fact, having been on the relevant 
committees in the State Legislature, I know that in fact it 
spurred a great deal of innovation, different approaches for 
towns like my town of Cheshire, which has exceeded its goals 
already, Waterbury, the largest city in my district, which are 
participating in state programs at their own option, developing 
their own ways of moving forward.
    Can you sort of explain to my colleagues a little bit more 
how Connecticut has achieved that innovation and that 
flexibility and that tailoring to meet those goals and in fact 
exceed them, save money, and improve the environment?
    Ms. Dykes. Absolutely. The programs that we've put in place 
and frankly the political commitment that's been created in 
Connecticut through Governor Malloy's administration and 
leadership of our General Assembly in adopting a statutory 
requirement to reduce carbon pollution has created an 
environment where all of these players are coming forward with 
different ways to reduce carbon pollution and make the 
transition to a clean energy economy, whether they are 
municipalities that are participating in our various commercial 
piece, financing programs, whether they are renewable 
developers who are taking advantage of our long-term 
contracting programs that are achieving renewable deployments 
at unheard-of low costs for renewable deployment, and down to 
individual customers who are making the choice to participate 
in energy efficiency programs that are not only putting money 
back into their pockets, helping businesses lower their 
operating cost, but they're also creating benefits for all 
ratepayers to the extent that they're helping us to avoid the 
cost of new generation and more transmission, and at the same 
time contributing to the resiliency of our grid.
    You know, I want to take a little--maybe clarify to the 
point that Dr. Smith was responding to is that we don't believe 
that the EPA has created a mandatory cap-and-trade program 
through the Clean Power Plan. In fact, one of the things that 
the RGGI States asked for was for the EPA to provide 
flexibility for States, which has been so successful for us in 
how they comply. And of course States could pursue a 
traditional regulatory approach into adopting the Clean Power 
Plan requirements in normal permitting--permits for compliance 
entities, but EPA has been so many tools forward to allow 
States to opt into multistate mass-based programs to make 
trading with other States and other jurisdictions very feasible 
and flexible for States. And I think that that's one of the key 
features of that program, that it does respect those needs of 
States and desires of States to comply in a way that matches 
their policy goals.
    Ms. Esty. And if you can briefly talk a little bit about, 
for example, the Home Energy Solutions program, how that works 
in Connecticut again to put the power in the hands of consumers 
and businesses to make those choices.
    Ms. Dykes. Absolutely. I'm always pleased to pitch the 
program. By just making a simple call to their utilities, our 
residents in Connecticut can achieve--receive hundreds of 
dollars worth of energy-saving upgrades for their homes, which 
help them feel more comfortable, reduce drafts, change out 
their lighting, and the--you know, we see tens of thousands of 
Connecticut residents taking advantage of this, especially low-
income families and businesses who spend a lot of their budgets 
on energy--or on electricity.
    Ms. Esty. Thank you very much.
    Chairman Smith. And thank you, Ms. Esty.
    The gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    Will the Clean Power Plan have any discernible, i.e., 
statistical measurable and attributable impact on global 
temperature as a result of its implementation? If so, what will 
that impact be and how was that impact determined? And that's 
for whomever would like to answer that question.
    Mr. Knappenberger. Well, I've attempted to quantify the 
impact of that, and it's very small. The Clean Power Plan is--
only goes after, you know, U.S. power plant emissions, which 
are only part of the U.S. economy, which are only part of the 
world emissions. So it is that drop in the bucket of global 
emissions, and as a result, the resulting climate impact of 
achieving the plan is extremely small.
    Mr. Brooks. Would extremely small be synonymous with 
negligible?
    Mr. Knappenberger. Yes, I would say that's correct.
    Mr. Brooks. Ms. Dykes, do you have a similar or different 
opinion?
    Ms. Dykes. Well, again, I would say from the Connecticut 
experience, you know, the programs that we've put in place, our 
participation in RGGI, is--you could say is, you know, well, 
we've achieved significant reductions, 40 percent over the last 
ten years, and that's only one step towards what the global 
need to do in order to have a meaningful impact on reducing 
carbon emissions, but it is so critical that everyone make 
these steps because it is a global pollutant.
    And so, you know, the leadership that we show by putting--
by compliance with the Clean Power Plan I think sets a model 
and paves the way for other States--other countries to take 
action as well.
    Mr. Brooks. Well, let's worry about the United States for a 
moment. What kind of impact does this plan, the Clean Power 
Plan, have on the world situation? Well, the United States is a 
major emitter of greenhouse gas--greenhouse gases. The Clean 
Power Plan will achieve up to 32 percent emissions reductions 
from the electric sector, which is our largest source sector. 
So I think it's going to have a very meaningful impact in U.S. 
leadership in carbon reductions.
    Mr. Brooks. Do you have any way of quantifying what the 
Clean Power Plan's impact would be on total global emissions, 
some kind of percentage?
    Ms. Dykes. I don't. I know that that's available from the 
EPA, and we see that--you know, we think that this leadership 
is really necessary and overdue.
    Mr. Brooks. Mr. Magness, do you have an opinion?
    Mr. Magness. Sir, as the grid operator in Texas, we haven't 
examined or modeled the global impacts I think that you're 
referencing. So I think certainly some of the concerns Mr. 
Knappenberger raised have been raised by our state leadership, 
but we haven't modeled those in our particular study.
    Mr. Brooks. Dr. Smith, are there public health impacts when 
people lose their jobs and have lower incomes? And did the EPA 
take those into consideration in its rulemaking for the Clean 
Power Plan in your judgment?
    Dr. Smith. There are impacts when people's spending power 
is reduced, and this regulation is projected to reduce spending 
power. When that happens, people have to make substitutes in 
their choices, and there is evidence in the literature that 
there are health effects, and in fact mortality and--you know, 
greater mortality rates when spending power is reduced. Now, 
EPA did not account for this in their particular analysis of 
costs or benefits.
    Mr. Brooks. Is there any way in your judgment, given the 
information that you have and your experience and intellect, 
that you can share with us what kind of increase in mortality 
that you anticipate from the Clean Power Plan on the economic 
side, as opposed to the alleged benefits on the pollution side?
    Dr. Smith. I think the best way to think about that is to 
just simply compare the costs and the benefits, and when the 
actual benefits, the climate benefits are properly assessed and 
taken in a U.S. context and compared to the U.S. costs of this 
plan, the--it's not a good purchase.
    Mr. Brooks. Another question, Dr. Smith. How can EPA claim 
economic benefits from a rule that will increase consumers' 
electricity prices, decrease electricity reliability, and shut 
down affordable energy sources like coal-fired power plants?
    Dr. Smith. Again, the issue is these actions have costs, 
and costs have consequences. And when the costs are taken into 
consideration, they're quite substantial and they could create 
harm that's imminent and current in return for potential 
estimated benefits that are far in the future and appear on a 
U.S. basis to be less.
    Mr. Brooks. Thank you, Dr. Smith. I see my time is about to 
expire.
    Mr. Chairman, I yield back the remainder.
    Chairman Smith. Thank you, Mr. Brooks.
    And the gentlewoman from Maryland, Ms. Edwards, is 
recognized.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses as well.
    You know, I just want to point out a couple of things. One, 
we've had about 40 years, 4 decades of experience that shows 
that the Clean Power Plan in fact will not cost jobs and it 
won't take down the economy. Actually, to the contrary, on 
balance, the regulations have spurred innovation and created 
economic opportunity. I think we heard Ms. Dykes speak to that.
    The costs of inaction, in fact, on climate change far 
outweigh the costs of action. And I think that we can see that 
when you look at this last October, which will put us--sets us 
on pace for this year being the warmest record temperatures 
that we have seen on record since 2014, but prior to that, 
actually back into the 19--into the 1880s, preindustrial times. 
And so there's great cost of us not doing anything.
    EPA is also, as Ms. Dykes has pointed out, is in fact 
meeting its statutory obligation to protect our public health 
and our environment. And EPA is using the best available 
science and giving the States the flexibility that they need 
that uses peer-reviewed science to engage in constructive 
technologies and techniques to make sure that we can deal with 
this. Contrary to what the other side is saying, there is no 
secret science here in the work that the EPA is doing.
    There seems to be--one of the arguments that--and we've 
heard it on this panel today, that somehow it's--the greenhouse 
gas emissions reductions are so minimal that we shouldn't do 
anything about that. But I would point out that if we were to 
just go to the 2025 levels with the reductions targets that 
have been set in place, that in fact we would reduce our carbon 
emissions by about 20 percent. If we were to go out to the 2050 
time frame, we would reduce those emissions by about 60 
percent. This would have a measurable impact on temperatures 
and on climate change and on the United States' responsibility 
with respect to doing something about this because we are a 
global leader, and we are a significant contributor to 
greenhouse gas emissions.
    And so with my time remaining I want to leave to Deputy 
Commissioner Dykes to talk about the kind of innovation and 
economic growth that's been spurred in Connecticut--Maryland is 
also a participating RGGI State; we are very proud of that--and 
how you can spur innovation and create jobs. And then I want 
you to speak to the importance of the United States' leadership 
in the world going into Paris knowing the numbers that we have 
now and the warmth that we are experiencing today even compared 
to last year and compared to the 1880s because I think if we 
don't do something now, we are in big trouble, and this 
committee bears a responsibility to do that. And I'll leave you 
the balance of my time.
    Ms. Dykes. I appreciate that, Representative Edwards.
    You know, we are very pleased to co-implement the RGGI 
program, along with the State of Maryland. And the highlight of 
the RGGI program is that each State retains its own flexibility 
to make choices about how to invest the proceeds from the sale 
of carbon allowances into those programs that match that 
State's particular policy preferences. And that includes, as I 
mentioned, investing in energy efficiency and renewable energy.
    In Connecticut, for example, we took some of our RGGI 
proceeds and used them to fund the country's first Green Bank, 
which is leveraging that small amount of funds, along with some 
ratepayer contribution, to attract private capital, private 
investment into energy efficiency and clean energy. And so 
we're vastly expanding the impact of those dollars, at the same 
time demonstrating to the private sector the real investment 
opportunity in these technologies. And it's really taking--
bringing capital off the sidelines that we see who's ready and 
poised to invest when that market signal is there.
    Other States--I know Maryland also invests its proceeds in 
bill assistance, which is so critical for families and 
businesses as well, and we are just seeing all--innovations in 
terms of technologies, bringing down the costs and things like 
solar on rooftops, grid-scale wind, you know, the efficiency of 
wind turbines is getting better every day. This is again 
because of the market signal that we are sending.
    You know, we have I think through the independent report 
that was done by the Analysis Group, they've reviewed our 
program twice now and confirmed that although there are very 
modest impacts to bills as a result of the cost of the 
generators purchasing allowances, those are more than overcome 
for by, you know, billions of dollars of net economic benefit 
that accrues because of these reinvestment and efficiency 
energy savings programs and renewable programs from RGGI.
    Ms. Edwards. Thank you so much for your testimony. And with 
that, I yield.
    Chairman Smith. And thank you, Ms. Edwards.
    And the gentleman from Florida, Mr. Posey, is recognized 
for his questions, but would he yield to me briefly?
    Mr. Posey. Yes, sir, I would.
    Chairman Smith. I just want to make sure that the record 
reflects a couple of facts about the alleged claim that 2014 
was the hottest year on record. If you read the footnote to 
that temperature, you find out that the NASA scientists say 
they were only 38 percent sure that that was accurate, less 
than 50/50.
    Furthermore, the alleged increase in temperature was so 
small that it was within the margin of error over previous 
years. So I just want to make sure that people understand and 
put that in perspective.
    And thank the gentleman for yielding and he continues to be 
recognized.
    Mr. Posey. Thank you, Mr. Chairman.
    As I've learned well from the other side, some people have 
a tremendously good grasp of the small picture here.
    I'd like to submit a slide from the Institute for 21st-
Century Energy for the record.
    [Slide.]
    [The information appears in Appendix II]
    Mr. Posey. This slide shows a number of coal-fired power 
plants planned and under construction and their total capacity 
in megawatts.
    I think the conclusion is fairly simple. The world is 
hungry for energy, and whether you like it or not, coal is 
going to be the energy that will do what's necessary to fill 
that gap. And nothing that happens in Paris is going to change 
that.
    It seems somebody in the administration or a group in the 
administration seem to be in la-la land. I mean it's just not 
reality. And it's hard to understand why they seem to have no 
problem making life more difficult not only for American 
families but especially harmful to those in America and around 
the world who can least afford it. I just don't know why the 
other side would want to harm them.
    Mr. Knappenberger, the Paris conference appears to be more 
about climate financing, so not only is the United States 
supposed to hobble its own economy with the Clean Power Plan in 
the name of the President's climate change agenda, it seems now 
we're going to be asked to pay billions to developing 
countries. Am I reading this right?
    Mr. Knappenberger. That's definitely one aspect that's 
going to be discussed in Paris. It'd be surprising if something 
binding comes out of that, but they are going to talk about 
that.
    Mr. Posey. Do commitments in an international agreement 
that is not reviewed by Congress have any binding effect on 
domestic law?
    Mr. Knappenberger. That's not my area of expertise. I've 
seen people who have suggested that there's difficulties with 
that.
    Mr. Posey. Professor Laurence Tribe compared the EPA's 
power grab in the Clean Power Plan to ``burning the 
Constitution.'' Could the same be said of the Administration's 
international agenda here, do you think?
    Mr. Knappenberger. Well, the Administration's international 
agenda, you've got to be careful with it because going forward, 
the climate change that's projected to occur is going to be 
coming from--90 percent from emissions from these developing 
countries. And so to--if you do something that sort of limits 
their ability to develop, that's going to be potentially far 
worse than whatever climate change might bring to them.
    Mr. Posey. In your testimony, you question the necessity 
for the Clean Power Plan in the President's pledge to the 
United Nations. Are you inferring that the technological 
investments and trends will already reduce carbon emissions 
without regulation or further pledges?
    Mr. Knappenberger. I think that--I mean, business as usual 
is a pretty strong plan--is a pretty strong way forward. 
Energy--economies become more energy efficient over time and, 
and especially developing economies do that more rapid than 
developed economies. And our--in our case with the input of 
natural gas into the energy production system, we've become 
more carbon efficient with our economy, too.
    So business as usual is a strong plan, and you can lower 
your emissions through technological advancements that don't 
need to be, you know, dictated from----
    Mr. Posey. Shoved down everybody's throat.
    Already, 27 states, more than half the country, have filed 
legal challenges against the existing power plan regulation, a 
number that could grow even higher. Where are the President's 
international climate commitments if the rules he's relying on 
our thrown out by the courts?
    Mr. Knappenberger. Well, it's very unlikely they're going 
to be able to be met.
    Mr. Posey. Okay. That's the questions I have, Mr. Chairman. 
Thank you. I yield back.
    Chairman Smith. Okay. Thank you, Mr. Posey.
    And the gentlewoman from Massachusetts, Ms. Clark, is 
recognized.
    Ms. Clark. Thank you, Mr. Chairman. And thanks for having 
this hearing, to all our panelists for being with us today.
    I'm very proud to be from a State that is part of RGGI. And 
thank you, Deputy Commissioner Dykes, for joining us. I 
wondered if you could talk a little bit about when we set the 
market value for carbon, how has that affected job creation in 
Connecticut?
    Ms. Dykes. Well, I can tell you throughout the RGGI region 
we've seen an increase in jobs related to the investments that 
the RGGI States are making fueled by the proceeds from the sale 
of carbon allowances. So the Analysis Group completed an 
independent review, as I had mentioned in my testimony, that 
just from the last three years of implementation of the RGGI 
program we have generated 14,000 new job-years. Those are jobs 
that are in our States, whether it's installing insulation, 
putting renewable facilities into place, we're keeping dollars 
in our States, growing our own economies instead of exporting 
those dollars out of our region to pay for fossil fuels.
    Ms. Clark. Could you also go into a little more detail 
about the role of energy efficiency and the success of RGGI?
    Ms. Dykes. Yes, energy efficiency is one of the most cost-
effective ways for us to reduce carbon pollution, and that's 
recognized by States across the country who have programs to 
invest in efficiency. It creates so many benefits, whether, you 
know, to the customer who takes advantage of the measures by 
lowering their bills, but also by reducing the amount of 
electricity we need to flow across the region so we're avoiding 
the need to develop more transmission and new power plants.
    This is why we call it the first fuel, and I know I've been 
very jealous of Massachusetts, which ranks number one very 
frequently in--across the country in their efficiency 
commitments.
    Ms. Clark. And could you talk a little bit--you mentioned 
before about the grid and how this has helped, and this is a 
huge concern, sort of the infrastructure of our electric grid 
across the country. Could you talk a little bit more about the 
impact of RGGI on your grid stability?
    Ms. Dykes. Of course. You know, States have a long--and 
regional transmission organizations have a long history of 
factoring environmental compliance into the reliable operation 
of the grid, including capacity planning. You know, we are--we 
see the investments that we're making in renewables and energy 
efficiency helping to improve the resiliency and the 
reliability of our grid.
    Right in Connecticut we invest in distributed generation, 
including microgrids, which help to provide resiliency, 
especially with the increased severity in storms that we are 
experiencing. We see--we're especially--pleased to see some of 
the improvements that the EPA has made in the final Clean Power 
Plan in providing a reliability safety valve and other 
mechanisms for States to plan for revisions of their state 
implementation plans if necessary if there are unforeseen 
consequences or challenges that arise.
    But I would just stress that, you know, multistate mass-
based programs like RGGI, because we span, you know, a diverse 
set of States with a diverse fuel mix, we cross three different 
regional transmission organizations, and this provides a lot of 
flexibility to address retirements where they occur, and it 
gives the compliance entities some mitigation of their risk 
because there's so much diversity in the fleet.
    So that's been one of the great benefits that we've proven 
through the RGGI program that I think provides a lot of 
assurance for other States as they look at their options for 
compliance.
    Ms. Clark. Thank you. I also had a question for Mr. 
Knappenberger. I don't want to mischaracterize your testimony, 
but I'm trying to understand your position. You started your 
testimony by saying you believe we are experiencing climate 
change. It has natural and manmade causes behind it. But then 
we're sort of talking about the Clean Power Plan, some of the 
environmental measures that we're taking. I think you said they 
are so small; they're a drop in the bucket. I think you agreed 
with the characterization that they would be negligible.
    So is your bottom line, is it fair to say that at the end 
of the day you're saying stay the course where we are, that we 
don't need any changes, or are you an advocate for more than we 
are currently doing or proposing to do to address climate 
change?
    Mr. Knappenberger. Thanks for the question.
    I'm a climate scientist and I've been studying the issue 
for 25 years I think I said, and I'm--I think a lot of what you 
hear about is being overblown. I don't--I think we're 
influencing the climate. I just don't think at the end of the 
day our--the net of our influence is going to be all that 
detrimental that we need to try to actively combat that.
    Ms. Clark. So business as usual is good enough?
    Mr. Knappenberger. Yes.
    Ms. Clark. Thank you.
    Chairman Smith. Thank you, Ms. Clark.
    The gentleman from California, Mr. Knight, is recognized.
    Mr. Knight. Thank you, Mr. Chair. I have a couple 
questions.
    Mr. Knappenberger, if you could give me an idea. You gave 
testimony and there was an awful lot of information in there, 
but, you know, as we go into Paris, and we're about ten or 
eleven days away from doing that, is there disagreement that's 
going to come out of there? Everything that I've read is not a 
binding agreement, there's not an authority to enforce out of 
this agreement. But can you give me an idea, because I've read 
this, of what the cost is going to be?
    So if we look at countries, because as I understand the 
agreement, as we go into Paris, they talk about the ability for 
a country to act, the ability for a country to economically 
act. And some of these countries have no ability to act on 
this, even though they will be working into an agreement.
    So can you give me an idea, just an opinion of what America 
will be going through as opposed to other countries on kind of 
a cost basis economically as we move forward with this 
unbinding agreement?
    Mr. Knappenberger. Yes, thanks for the question. First off, 
I'm a client scientist, not an economist so I don't know the 
economy, that much of it. But what I can tell you what's going 
into Paris is that all the countries of the world had to turn 
in their--they had a homework assignment from last time to tell 
everyone--the rest of the world what they were going to do to 
address climate change. And at the end of the day when all the 
homework was turned it, it turns out that it's not a whole lot. 
It's not much different from business as usual. And so it 
doesn't really impact the direction the climate was going in 
any way.
    The United States' particular plan is a little bit more 
aggressive than business as usual, so we'll have to put actions 
in place to achieve our plan. In other major countries like 
India, I've seen assessments where this actually--their 
promises were actually less than business as usual their 
economy was going in any way.
    So at the end of the day, whatever comes out of Paris--I 
seriously doubt it will be binding--is not going to impact the 
climate--the direction the climate is going to go into in the 
future, but I imagine there will be some economic impact, 
although, like I said, many of these countries aren't pledging 
much more than the direction their economy is going in any way.
    Mr. Knight. Thank you. And, Dr. Smith, I'm going to come to 
you on the same question but just a little bit more in depth 
because all of the articles I've read, everything that I've 
read that we're going into Paris, there are going to be several 
countries that are going to go into this and they're going to 
be very engaged, I'm sure, in this and then walk out of there 
knowing that they can't do anything, that they won't do 
anything, and America will probably walk out of there thinking 
that everyone is looking that we can do everything. What say 
you?
    Dr. Smith. Well, we have almost the same situation as we 
had with the Kyoto Protocol. Commitments were made and 
commitments then were found to be costly once the statesman 
went home and tried to say how will we implement this--these 
commitments. And then not all of the commitments were met.
    In the case of some countries, they may not have binding 
regulatory programs that will force them to implement programs 
that they may find to be costly. In the United States we may 
find ourselves implementing these programs because they're part 
of our regulatory structure.
    Mr. Knight. Thank you. And, Mr. Magness, as we see, you 
know, our states have a little similarities with Texas and 
California. Some of the similarities are we're big states, we 
have a lot of wind, and we have a lot of sun, so there are an 
awful lot of possibilities for renewable energy in those 
states. And in California we have taken it into the nth degree 
with our RPS, our Renewable Portfolio Standard, that is putting 
a lot of our companies at a disadvantage with other states and 
are rising our prices of electricity quicker than most every 
other state.
    Can you give me an idea as we move forward with this type 
of activity? Where is the line in the sand that we can't go any 
further, that the renewables have maybe taken their course and 
we can't get any further on renewables? We are going to have to 
burn something at some time when the wind is not blowing and 
the sun is not shining and maybe we don't have that new 
technology that can bridge us to that next capacity. Do you 
think we're getting to that point, especially in states like 
ours?
    Mr. Magness. Mr. Knight, that's a very good question, and 
it's an issue that ERCOT is actively investigating now. Because 
we're seeing, as I noted, nation-leading wind implementation, 
we've set a new record of over 12,600 megawatts of wind on our 
grid just this week.
    And as I mentioned in my testimony, we welcome megawatts, 
whether solar, whether wind, coal, natural gas----
    Mr. Knight. Sure.
    Mr. Magness. --all of the above, but at times in order to 
maintain grid stability you need to be able to have something 
that the operators can control, something that can be 
dispatched like traditional thermal units. And I think often 
the point at which it gets trying for the operators is maybe 
not what you would expect, not so much the high, high peak day 
but the day when load is low and it needs to be balanced 
somehow, and only the renewables are on the grid. If those drop 
off quickly or go up quickly, we have to have mechanisms in 
place to be able to dispatch and control that.
    What we've seen in ERCOT is the market construct that our 
legislature created in 1999, which is a deregulatory approach, 
has driven more wind into our state than we've seen anywhere 
else. It is also beginning to drive more solar investment in 
our state, but we've maintained a large base of gas, of coal, 
of nuclear resources that allow us to keep the grid balanced. 
And it is that balance that we need at some level in order to 
continue to operate reliably into the future.
    Mr. Knight. Thank you very much, and I appreciate the time, 
Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Knight.
    The gentleman from Texas, Mr. Babin, is recognized for his 
questions.
    Mr. Babin. Thank you, Mr. Chairman.
    And I'd like to ask Mr. Magness a few questions. Being a 
Congressman from Texas, I represent the 36th District in 
southeast Texas, and 63 percent of our power is coming from 
coal-fired plants, so we have a great interest in the Clean 
Power Plan. But how will the Clean Power Plan affect average 
electricity consumers in our State, Mr. Magness?
    Mr. Magness. Mr. Babin, I'd say in two ways based on our 
studies. One is our study found that the cost of energy we 
would expect to increase by up to 16 percent going out into the 
implementation period. So just on that basis alone you'd see 
that sort of increase.
    Mr. Babin. Yes.
    Mr. Magness. Then, in addition, for example, in Texas we 
recently spent $6.9 billion investing in new transmission 
primarily to bring renewable energy that's in the rural west 
part of Texas into the cities and into east Texas. So those 
costs all have to be recovered from end-user customers as well.
    When we have to buy reliability services--and they're not 
just the energy coming out of the plant but something in 
addition to keep the system stable--those costs will increase 
as we have to face that situation more. So all of those costs 
in our market ultimately roll down to the end-user consumer.
    Mr. Babin. I got you. Okay. And then second, Texas leads 
the nation in wind power, but EPA projects in building block 3 
of the final rule that over 100 terawatt hours of renewable 
generation will be added in ERCOT by 2030 in addition to what 
exists today. Given ERCOT's experience with integrating 
renewables, is that a realistic estimate?
    Mr. Magness. Well, it's an enormous increase in what we're 
seeing. We currently in 2014 saw 36 terawatt hours on our 
system, and this is setting wind penetration records for the 
nation frequently.
    Mr. Babin. Right.
    Mr. Magness. So to--the idea of taking that up to 100 is an 
enormous reach to add to a system that's already doing a whole 
lot with renewables.
    Mr. Babin. Okay. And then the Clean Power Plan is just one 
part of the EPA's regulatory onslaught against Texas and other 
states. The EPA looks at the rule in isolation, but does Texas 
face a cumulative impact from this and other recent EPA rules?
    Mr. Magness. Yes, and the one I would cite to you most 
specifically is there's a regional haze program that EPA 
manages. We're facing a federal implementation plan on the 
regional haze rules that could drive out coal-fired units much 
more quickly than the Clean Power Plan. So we may be seeing--
but part of the--as you mentioned, the cumulative impact is if 
you might make the investment as a unit owner to comply with 
regional haze, you might not make that investment as you look 
over the horizon----
    Mr. Babin. Certainly.
    Mr. Magness. --there's an increasing number of investments 
that would be required, and it may make it a harder decision to 
keep those units available while we are building the 
transmission and taking the other steps we need to meet the 
time when they're gone.
    Mr. Babin. Okay. EPA says compliance with the Clean Power 
Plan will not start until 2022 but could Texas start seeing the 
impacts much sooner than that, especially when taking into 
account other EPA regulations?
    Mr. Magness. I think for the reason we were discussing just 
a moment ago that you see sort of the cumulative impact of 
these rules and people are going to have to make very large, 
important investment decisions----
    Mr. Babin. Right.
    Mr. Magness. --in the near term, and all they can see over 
the horizon is difficulties in the long term.
    Mr. Babin. Last question, ERCOT's analysis of the impacts 
of the Clean Power Plan state that, though EPA made a number of 
modifications in the final rule, the most impactful for the 
stringency of the limits for Texas is EPA's shift to a uniform 
national approach for setting the standards of the final rule 
rather than the state-by-state approach used in the proposal. 
Has EPA provided state regulators with a significant degree of 
flexibility in determining how to comply with the Clean Power 
Plan, and why is a uniform approach a particular concern to 
Texas?
    Mr. Magness. Well, I think that part of the issue here is 
the--understanding the ERCOT interconnection, which is a--sort 
of a separate grid from the eastern and western 
interconnections. So our ability to participate in regional 
approaches is more complicated, I think, than a lot of other 
areas and produces a challenge for Texas that may not exist in 
other States and other regions. So that certainly ups the ante 
on the difficulty of taking that kind of approach.
    So while there were some differences in that national 
approach that affected, you know, what we're seeing in the 
study, we think trying to manage it in that--in the way they're 
contemplating is difficult, particularly when we've seen--our 
market, as it works, is generating a lot of the outcomes 
they're already looking for.
    Mr. Babin. Right.
    Mr. Magness. To change it doesn't make a lot of sense as 
far as trying to get the same objectives.
    Mr. Babin. Anyway, thank you, Mr. Magness. And I'd also 
like to thank all the other witnesses. We appreciate you coming 
today. And with that, I yield back the balance of my time, 
which is zero.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from Louisiana, Mr. Abraham, is 
recognized.
    Mr. Abraham. Thank you, Mr. Chairman.
    I have been watching the narrative that Ms. McCarthy has 
been giving as far as the CPP, and I noticed it changed 
somewhat in August and in late July from global warming as to 
the effects of the CPP or the effects of carbon to--she then 
went to say that it's going to exacerbate childhood asthma. And 
so I've been looking at this from a physician's point of view, 
and I really made no connection between CO<INF>2</INF> and 
child exacerbations of asthma. I've treated thousands of cases 
of it, and I know for a fact that most of childhood asthma is 
either tobacco smoke or rhinovirus or seasonal due to pollen or 
dust.
    So I guess my question to you, Dr. Smith and Mr. Magness, 
what are the health disbenefits of the CPP? For instance, are 
many seniors in my district--and certainly I live in a very 
rural district where unfortunately we have a disproportionate 
number of--people on a low fixed income. So are the poor and 
the seniors going to have to choose between medicines and 
higher electricity cost to afford medicine? Because if they do, 
that affects their health directly. I can make that connection 
much more easily than I can with the other way with the 
CO<INF>2</INF> and the asthma exacerbations. Yes, Dr. Smith.
    Dr. Smith. Thank you. I'd just like to repeat, as I said in 
my oral statement, that those asthma attacks that you're 
referring to have nothing to do--they really have nothing to do 
with climate change----
    Mr. Abraham. And I agree. I think it's pixie dust.
    Dr. Smith. --neither in the present or the future. EPA has 
based them entirely on changes of--coincidental changes of 
other types of pollutants that are already regulated, and those 
other pollutants are already regulated to levels that are 
protective of the public health. So there's really not a 
credible case for arguing that there would even be those 
benefits to be had as these other pollutants fall coincidently 
in the implementation of the CPP to get the CO<INF>2</INF> 
down. But they have nothing to do with climate change.
    Now, at the same time you raise the question are there some 
other kinds of disbenefits, health disbenefits even that may be 
incurred as a result of the CPP, and that would be--if--as I 
said before, there is--there are statistical associations found 
between disbenefits in health and increased spending or costs 
to consumers. And so those would be real as well. They would be 
just as real as the statistical types of calculations that are 
lying behind the asserted benefits of the CPP. EPA has not 
calculated them. And as I said, if you compare costs to 
benefits, you end up with the impression that the costs are 
actually greater than the benefits, which would imply that 
there are these health disbenefits also to be had from those 
costs.
    Mr. Abraham. Mr. Magness, you have something to add, sir?
    Mr. Magness. Mr. Abraham, if we're not able to provide 
reliable electric service--that service is fundamental to 
people's way of life day-to-day--the way in which a grid 
operator protects the grid from blackouts, from a much, much 
worse situation occurring that could go on for a while, is to 
do rotating outages. We don't like to do them, but it's one of 
the tools we have.
    What we see in our analysis is that if we are not able to 
get the transmission lines built in time to replace the coal 
units are lost, we could see, particularly, you know, localized 
effects in places like Dallas, places like Houston, that we may 
have a higher and higher risk of having to do rotating outages. 
When we do those rotating outages, they're not something that 
you can plan very much in advance because of the nature of the 
electric system. They affect hospitals. They affect schools. 
They affect where our elders are cared for.
    So I think as a--you know, from the highest level, one of 
the reasons that electric reliability is so essential is the 
day-to-day health and operation of people of our economy.
    Mr. Abraham. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Abraham.
    And the gentleman from Georgia, Mr. Loudermilk, is 
recognized.
    Mr. Loudermilk. Thank you----
    Chairman Smith. I'm--if the gentleman will excuse me, I 
skipped over someone by mistake, and it's the gentleman from 
Alabama, Mr. Palmer, who's up next.
    Mr. Palmer. Thank you, Mr. Chairman.
    And, Mr. Loudermilk, I hope you can wait five minutes. Is 
that okay?
    Mr. Loudermilk. Yeah.
    Mr. Palmer. Thank you. Dr. Smith, did you find any serious 
problems with EPA's analysis of the Clean Power Plan?
    Dr. Smith. I found that they are not reporting the costs 
they actually estimated, pushing those costs off into years 
beyond the time period when they have to report cost estimates 
in their Regulatory Impact Analysis.
    I also found just yesterday that in their analysis of the 
mass-based cap they haven't actually analyzed the very rule 
that EPA itself has implemented or promulgated, which is that 
they are allowing leakage, and that causes their cost estimates 
to be understated.
    Mr. Palmer. Does that come across to you as a bit 
disingenuous?
    Dr. Smith. I think that the reporting problems are a bit 
disingenuous. That has that appearance to me. The issue of the 
leakage, I'm not sure. I'm not sure how--whether it's even been 
noted or that they're aware that they failed to do that.
    Mr. Palmer. Ms. Dykes, this is a yes or no question in 
regard to Mr. Abraham's points about asthma and health benefits 
of the Clean Power Plan. Is it your opinion--is it the EPA's 
opinion that it does reduce asthma rates and has a beneficial 
impact on health?
    Ms. Dykes. It is my opinion that, yes, it does.
    Mr. Palmer. Thank you. That's interesting because 
Administrator Gina McCarthy testified before Congress that the 
Clean Power Plan--and I'm quoting--``will not have any 
meaningful direct impact on respiratory health, atmospheric 
temperatures, or sea level rise,'' which begs the question why 
is EPA selling out to impose this? And her response was 
something that actually you testified to a little while ago, 
that it will encourage other nations to comply.
    Mr. Knappenberger, your expertise is climate. Are you 
familiar with the research that's indicating that we're 
actually entering into a cooling period?
    Mr. Knappenberger. A little bit as having to do with the 
solar variability and the decrease of that. That is ongoing 
research. I'm not sure what it will yield. But as I said, there 
are natural and there are human influences on the climate 
system, and the human influences add a pressure to warm it, but 
doesn't mean that you--that it will warm, as other natural 
influences could offset some of that warming.
    Mr. Palmer. So your research is consistent with the natural 
variations. I think, in fact, one of the IPCC lead authors has 
reached that conclusion that any variation in the climate is 
the result of natural variations.
    I also want to address this issue of the cost, and it's 
interesting that we've had a couple of members testify about 
the benefits in their states, and I would just like to point 
out, Mr. Chairman, that for Connecticut, they have the highest 
household energy costs in the country.
    And in terms of the impact on low-income families, it might 
be interesting to look at the federal program, the Low Income 
Household Energy Assistance Program. Connecticut is getting 72 
million a year. That's what your appropriations would be for 
2016, and Massachusetts, 133 million.
    So it has--it's obviously having an impact on low-income 
families. As a matter of fact, the National Black Chamber of 
Commerce indicated that if the Clean Power Plan, which they 
oppose, is implemented, it will cost African Americans seven 
million jobs, will cost Hispanics twelve million jobs, it will 
lower their household income by $455 per year for African 
Americans, 515 for Hispanic families. They estimate that the 
African American poverty rate will go up 23 percent, and the 
Hispanic poverty rate will go up 26 percent.
    Dr. Smith, is this in any way consistent with some of the 
things that you're finding?
    Dr. Smith. In our analysis we have the RGGI region 
meeting--in our base case meeting its RGGI caps and the costs--
basically, those costs that you're describing are embedded in 
our base case, and they don't even get captured into our cost 
analysis because we take those as already incurred. But there's 
no reason to believe that those costs aren't happening.
    And I also want to point out that the Analysis Group study 
is only looking at the benefits within the states, but there 
are damages and costs of the RGGI program to providers of fuels 
that are outside of the state, and those aren't being accounted 
for in the Analysis Group report.
    Mr. Palmer. Mr. Chairman, in wrapping up my point here, you 
know, you have the Administrator of the EPA admitting that it 
has little to no health benefit, little to no benefit in 
climate change. It seems like it's a massive public relations 
program, but really it seems like it's a political program. I 
yield back.
    Chairman Smith. Yes. Thank you, Mr. Palmer.
    And now the gentleman from Georgia, Mr. Loudermilk, is 
recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman, and also to my 
friend from Alabama, I just--that isn't the first time that 
Alabama has beat Georgia this year. I'll just bring that up.
    Dr. Smith, just for a few minutes here, I want to set aside 
hyperbole, I want to set aside tales of apocalypse of global 
warming, and I want to look at facts. I want to look at truth. 
My concern is the health and the welfare of the people of this 
nation, more specifically, the 11th Congressional District in 
Georgia.
    I've looked a lot into this, and you may say I want to look 
at the real impact overregulation by the government is having 
on the health, the welfare of the people of this nation. I've 
testified here before of what I have seen as going throughout 
the state of Georgia. Let me lay it out to you.
    Because of over-taxation and overregulation, many textile 
mills and other manufacturers that once dotted the landscape 
throughout Georgia that provided employment for generations of 
families--you had sometimes three generations of families 
working either in the factory or in a supporting business in a 
small community, a thriving small community in Georgia--those 
plants are now sitting empty because of the regulations that 
government has imposed upon them because those manufacturers 
have moved their operations overseas, not because of the cost 
of labor but because the hidden costs of overregulation and 
taxation.
    As you go into those neighborhoods, you go into those 
communities, you experience low-income families struggling to 
get by and you find poverty-stricken families. Their health has 
deteriorated, disease is higher, their living conditions are 
deplorable. Since this administration has gone on a rampage to 
even further destroy economic advancement in this nation, we 
have seen that we're trying to come back, but every time the 
economy tries to recover, we see more regulation coming down 
the pike. We've already closed coal-fired plants in Georgia 
costing 700 jobs of hardworking individuals because of 
regulation.
    Now, I read what's going to happen here. We already have 
some of the highest cost of electricity in Georgia. I have one 
of the largest coal-fired plants in the nation ten miles from 
my home. It is one of the cleanest. They have exceeded the 
standards that the EPA has already put out there, but now 
they're told they have to, even with a greater percentage. They 
can't get there because they're already employing the best 
technology out there. It is a very clean-operated coal-fired 
plant. They can't get there. It is going to shut down, costing 
another 2,000 jobs. We will see more of this poverty continue. 
When you look at the average American family is already paying 
$15,000 in hidden regulatory taxes, that causes them to have to 
take other means to get by.
    As we're going to see another 17 percent, as--according to 
your report, a 17 percent estimated increase in the cost of 
electricity, I guarantee you families will supplement that 
electricity in the cold months by burning alternate fuel in 
their homes in their fireplaces. It happens every year. Every 
time we have a price increase, there are more home fires, there 
are more people burning--and I can imagine, and I've had others 
testify, that burning wood in a fireplace creates more carbon 
into the atmosphere than the footprint of a coal-fired plant 
does for that home.
    But we know through studies that that increases asthma. The 
reason Gina McCarthy testified that pollution isn't a 
contributor to asthma because it isn't. The World Health 
Organization says there's not even a clear link. But indoor air 
pollution is.
    So my question, what are we going to see on a national 
scale if CPP is implemented on the impact to the economy and 
the average working family in this nation?
    Dr. Smith. The costs that I've been reporting and 
estimating are average costs across the whole average consumer. 
And they are substantial in their own right as--but regulations 
are regressive. The costs of regulations, especially 
regulations on energy, are regressive in their impact, and 
that's what you've been describing. And there's no question 
that people, if they have a hard time meeting their electricity 
bill, are going to resort to sources of energy in their home 
warming that creates indoor air pollution, and there's no 
question that indoor air pollution is a bigger problem than 
outdoor air pollution at this time, especially open fires in 
homes.
    Mr. Loudermilk. Okay. Thank you.
    And, Mr. Chairman, I would love to continue on with this 
but I see them I am out of time so----
    Chairman Smith. If you have another question, feel free 
to----
    Mr. Loudermilk. I would real quickly.
    Ms. Dykes, my question to you would be are we prepared to 
handle the increased cases of disease, the health risks that 
this type of situation--I'm telling you, I'm dealing with 
facts, not studies that the EPA does that won't even give us 
the data on the studies. I'm not talking about scientific 
studies. You can study all day long. The facts are the reality 
of what's on the ground in my district across the Nation. When 
there is economic downturn, when there are people without jobs, 
poverty goes up, living conditions go down, you see pollution, 
you see unhealthy living conditions in the home, and health 
risks and go up. Are we prepared as a nation to deal with the 
increase of the health that this downturn of this plan will 
give us for, what, .03 percent decrease in global temperature?
    Chairman Smith. Yes, 2 or 3/100 of a----
    Mr. Loudermilk. Oh, 3/100. Okay. Thank you for the 
correction.
    Ms. Dykes. Well, I agree with you. I think that to the 
extent that--you know, I'm excited to talk to you today not 
about hypotheticals and studies but about the real experience 
that--the verified successes that we've had in the RGGI region 
through implementing for several years a program that is a 
model for how States can comply with the Clean Power Plan.
    And, you know, you've heard from the panelists a variety of 
different concerns about impacts on customers, reliability 
impacts. We're experiencing those today because of the lack of 
action that's caused increased storm volatility. We've had five 
major storms roll through our State in 2011, 2012 that knocked 
out power to 800,000 customers. We have substations that have 
to be built up because of storm surges now, you know, that have 
not been affected for decades.
    And the ability to reinvest proceeds from the sale of 
carbon allowances is what gives us our greatest tool to help 
low-income customers through energy efficiency programs, to 
weatherize their homes and reduce their electricity bills. And 
so it's a very--I think those are demonstrated successes from 
our program.
    Chairman Smith. And I think Dr. Smith wanted to respond as 
well.
    Dr. Smith. It's certainly possible that when you start to 
tax energy, to take some of those tax revenues as Connecticut 
is doing and recycling them back to helping households, even 
low-income households to reduce the impact on their bills.
    But, you know, another problem with weatherization and the 
like is that in fact that can increase the problem of indoor 
air pollution, and if people continue to try to find yet 
cheaper ways to meet their needs for warmth, that will 
continue.
    Mr. Loudermilk. And I may conclude, Mr. Chairman, that 
these credits and help for low income is a good idea, but when 
they have no job and they can't pay their bills, period, a 
little bit of help doesn't go a long way.
    Chairman Smith. Thank you, Mr. Loudermilk.
    That concludes our hearing today. And let me thank the 
witnesses again, collectively and individually, for their 
testimony. This was very informative, very helpful, and we 
appreciate the time you took to be here and the effort you put 
into your testimony. Thank you.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
